DEPARTMENT OF THE ARMY
UNITED STATES ARMY LEGAL SERVICES AGENCY
DEFENSE APPELLATE DIVISION
9275 GUNSTON ROAD
FORT BELVOIR, VIRGINIA 22060-5546

January 5, 2021
Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
Re:

No. 20-301, Hennis v. United States — CAPITAL CASE

Dear Mr. Harris,
I represent the Petitioner in the above-captioned case, which has been
distributed for Conference on Friday, January 8, 2021.
I’m writing to clarify two statements in Petitioner’s Reply Brief. The brief
states that, among other firsts, Petitioner is the first servicemember “sentenced to
death by a court-martial for civilian offenses against civilian victims,” and that “[The
U.S. military] has never executed any servicemember for a civilian offense.” Reply Br.
1, 15.
As we noted in the Petition, the Court of Appeals for the Armed Forces and its
predecessor have only affirmed death sentences for offenses that “occurred overseas or
on military reservations.” Pet. 29. The government did not dispute this claim in its
Brief in Opposition. Thus, while courts-martial have in some cases sentenced
servicemembers to death for civilian offenses under the Uniform Code of Military
Justice (UCMJ) committed against civilian victims, we remain unaware of any prior
case in which a military death sentence was affirmed on appeal for a peacetime offense
that was clearly triable in a U.S. civilian court.1
Although we do not believe this alters the relevant analysis, we want to make
the record clear insofar as it could bear upon the Court’s consideration. To that end, I
would ask that this letter be circulated to the Members at your earliest convenience.
Sincerely,
Timothy G. Burroughs
Major, U.S. Army
Counsel for Petitioner
1.

As the Petition notes, there are two cases in which the location of the offenses is not
evident from published reports, but in which the circumstances strongly suggest that the
offenses fell outside the jurisdiction of civilian courts. See Pet. 29 n.11 (citing United States v.
Moore, 4 C.M.A. 482 (1954), and United States v. Riggins, 2 C.M.A. 451 (1953)).

